DOE/IG-0483




         AUDIT                  IMPLEMENTATION OF PRESIDENTIAL
                                 DECISION DIRECTIVE 63, CRITICAL
        REPORT                    INFRASTRUCTURE PROTECTION




                                               SEPTEMBER 2000




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                        September 22, 2000



MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman (Signed)
                       Inspector General

SUBJECT:               INFORMATION: Audit Report on the Department's "Implementation of
                       Presidential Decision Directive 63, Critical Infrastructure Protection"

BACKGROUND

In 1997, a Presidential Commission on Critical Infrastructure Protection concluded that the
national critical infrastructures – energy, banking, transportation, vital human services, and
telecommunications – were vulnerable to attack through the malicious use of commonly available
tools. On May 22, 1998, as a result of the Commission's findings, the President issued
Presidential Decision Directive 63 (PDD 63), Critical Infrastructure Protection. PDD 63
required Federal agencies to take action to eliminate significant vulnerabilities, especially
cyber-related, and to assure the continuity and viability of the nation's critical infrastructures.

Under PDD 63 the Department of Energy (Department) is required to develop and implement a
number of infrastructure protective measures. Specifically, the Department was required to:

       •   Develop and implement an internal plan for protecting its critical infrastructure assets
           by May 22, 2000; and,

       •   Coordinate external energy sector infrastructure protection activities by aiding private
           sector electric power and petroleum entities in assessing their vulnerabilities to cyber
           and physical attack, recommending plans to eliminate vulnerabilities, and proposing a
           system for identifying and preventing attacks.

The objective of our audit was to determine whether the Department's implementation of
PDD 63, Critical Infrastructure Protection, was achieving its intended purpose.

RESULTS OF AUDIT

The audit disclosed that the Department had not implemented its critical infrastructure protection
plan to mitigate significant vulnerabilities, or assure the continuity and viability of its critical
infrastructures. While external energy sector infrastructure protection activities were progressing
and a number of internal and collateral actions had been completed, actions had not progressed to
                                               -2-


the point where the objectives of PDD 63 were being accomplished. For example:

       •   Planning and assessment activities required by PDD 63, such as critical asset
           identification, vulnerability assessments, and corrective action plans remained
           incomplete; and,

       •   PDD 63 implementation efforts had not been given sufficient management attention
           or priority. Implementation efforts were hampered by a lack of specific
           Departmental plans, performance measures, and goals.

The Department's progress to date in fully implementing and executing PDD 63 increases the
risk of malicious damage to its cyber-related critical infrastructure that could adversely impact
the Department's ability to protect critical assets and deliver essential services. National goals
for achieving an initial protection capability by the end of 2000 and a fully functional
infrastructure protection program by 2003 may also be adversely impacted.

MANAGEMENT REACTION

We recommended a series of actions to help ensure that future efforts to protect the
Department's critical infrastructures are successful. Management concurred with the finding
and recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Under Secretary for Nuclear Security/Administrator for Nuclear Security
    Chief Information Officer
    Director, Office of Security and Emergency Operations
Implementation of Presidential Decision Directive 63, Critical
Infrastructure Protection

TABLE OF
CONTENTS



                    Overview

                    Introduction and Objective ..........................................................1

                    Conclusions and Observations............................................…....2


                    Implementation of Presidential Decision Directive 63, Critical
                    Infrastructure Protection

                    Details of Finding.......................................................................3

                    Recommendations and Comments ...........................................8


                    Appendices

                    1. Examples of Potential Cyber-based Critical
                       Infrastructure Assets .............................................................9

                    2. Scope and Methodology ............... ...............................…...10

                    3. Prior Reports……………………………………………………11

                    4. Management Comments………………………………………12
Overview

INTRODUCTION AND   In 1997, a Presidential Commission on Critical Infrastructure Protection
OBJECTIVE          concluded that the national critical infrastructures – energy, banking,
                   transportation, vital human services, and telecommunications – must be
                   viewed in a new context in the information age. The linkages resulting
                   from the integration of telecommunications and computer systems have
                   created a new dimension of vulnerability that poses an unprecedented
                   national risk. Our infrastructures can now be attacked and damaged
                   through the malicious use of commonly available tools.

                   As a result of the Commission's findings, the President issued
                   Presidential Decision Directive 63 (PDD 63), Critical Infrastructure
                   Protection, on May 22, 1998. PDD 63 required Federal agencies to
                   take action to eliminate significant vulnerabilities, especially cyber-
                   related, and to assure the continuity and viability of the nation's critical
                   infrastructures. The President also set two national infrastructure
                   protection goals. First, an initial operating capability for infrastructure
                   protection is to be achieved by the end of 2000. Second, by May 2003,
                   the United States is to have established the ability to protect its critical
                   infrastructures from intentional acts that could diminish the abilities of:

                       •   The Federal government to perform essential national security
                           missions and ensure the general public health and safety;

                       •   State and local governments to maintain order and to deliver
                           minimum essential public services; and

                       •   The private sector to ensure the orderly functioning of the
                           economy and delivery of essential telecommunications, energy,
                           financial, and transportation services.

                   PDD 63 required the Department of Energy (Department) to develop
                   and implement internal and external protective measures. Internally,
                   the Department was required to develop and implement a plan for
                   protecting its critical infrastructure assets, including appointment of
                   responsible officials, by May 22, 2000. Externally, the Department was
                   required to coordinate energy sector infrastructure protection activities
                   by serving as the Federal government's liaison with private industry on
                   issues related to protecting electric power and petroleum production and
                   storage assets. Specifically, the Department was required to aid private
                   sector entities in assessing their vulnerabilities to cyber and physical
                   attack, to recommend plans to eliminate vulnerabilities, and to propose
                   a system for identifying and preventing attacks.



Page 1                                                           Introduction and Objective
                 The objective of our audit was to determine whether the Department's
                 implementation of PDD 63, Critical Infrastructure Protection, was
                 achieving its intended purpose.


CONCLUSION AND   While external energy sector infrastructure protection activities were
OBSERVATIONS     progressing and a number of internal and collateral actions had been
                 completed, the Department had not implemented its critical
                 infrastructure protection plan to mitigate significant vulnerabilities, or
                 assure the continuity and viability of its critical infrastructures.
                 Therefore, the Department could not achieve the purpose of PDD 63.
                 Planning and assessment activities required by PDD 63, such as critical
                 asset identification, vulnerability assessments, and corrective action
                 plans remained incomplete. Required actions were not completed
                 because the Department had not given PDD 63 implementation efforts
                 sufficient management attention or priority. For instance, a lack of
                 specific plans, performance measures, and goals negatively impacted
                 implementation efforts. The Department's lack of progress in
                 implementing PDD 63 increases the risk of malicious damage to its
                 cyber-related critical infrastructure that could adversely impact the
                 Department's ability to protect critical assets and deliver essential
                 services. National goals for achieving an initial protection capability by
                 the end of 2000 and a fully functional infrastructure protection program
                 by 2003 may also be adversely impacted.

                 In our opinion, the audit identified issues that management should
                 consider when preparing its year-end assurance memorandum on
                 management controls.



                                                       ______Signed___________
                                                       Office of Inspector General




Page 2                                                                  Conclusions and
                                                                          Observations
Infrastructure Protection

Critical Infrastructure   The Department had not implemented its Critical Infrastructure
Protection Efforts Not    Protection Plan (CIPP) to mitigate significant vulnerabilities or assure
Complete                  the continuity and viability of its critical infrastructures. Specifically,
                          the Department's plan had not been amended to correct deficiencies in
                          the areas of threat analysis and emergency planning disclosed by an
                          external expert review. Also, the Department had not completed
                          internal infrastructure protection assessment activities such as critical
                          asset identification, vulnerability assessments, or the preparation of
                          corrective action plans and did not meet established milestones. Even
                          though the Department had not achieved the intended purpose of
                          PDD 63, it had made progress in completing certain preliminary
                          actions, external coordination activities, and several collateral efforts.

                                            Critical Infrastructure Protection Plan

                          While a significant amount of effort was initially devoted to the
                          preparation of its overall CIPP, the Department had not completed
                          action to correct plan deficiencies reported by an expert review team.
                          The initial plan described the Department's overall methodology for
                          identifying critical assets and performing vulnerability assessments.
                          The plan also established milestones for completing these tasks.
                          However, a subsequent expert review of the plan found that it lacked
                          detail in several areas. The review team indicated that the plan did not
                          include sufficient detail in the threat analysis and emergency planning
                          areas. Despite guidance by the review team, the Department did not
                          take action to revise its CIPP to address the team's findings. According
                          to an official with the National Critical Infrastructure Assurance Office
                          (CIAO), the Department was one of only three Federal agencies that
                          had not submitted a revised CIPP incorporating the expert review
                          team's comments.

                                Critical Infrastructure Assessment Activities and Milestones

                          The Department also had not completed the critical asset identification
                          process essential for successful implementation of PDD 63. Although
                          the Department's CIPP required that the process be completed and a
                          report submitted to the Under Secretary by March 1999, little progress
                          had been made. The Department had not completed the process of
                          evaluating infrastructure assets based on their ability to impact national
                          security, public safety and health, national economic security, or the
                          ability to satisfy internal management and administrative functions.
                          Lack of progress in this area prompted the National CIAO to offer the
                          Department assistance with the identification process. While the



Page 3                                                                           Details of Findings
         Department had agreed to accept the offer, no target completion dates
         or performance goals for the task had been established.

         The Department did not achieve established milestones for completing
         vulnerability assessments or developing corrective action plans. As
         with critical asset identification, these activities were specifically
         required by the Department's implementation plan and are essential for
         successful implementation of PDD 63. For instance, the results of
         specific vulnerability assessments, based on a Departmental threat
         statement, should have been provided to the Under Secretary in
         February 2000. Also, summaries of all corrective action plans
         developed to mitigate identified vulnerabilities should have been
         provided to the Under Secretary by March 2000.

                                   Department's Progress

         While the Department had not been successful in satisfying internal
         planning and implementation requirements, it had completed a number
         of preliminary activities. During early stages of its implementation
         efforts, for instance, the Department established a critical infrastructure
         protection task force to begin the process of developing a means of
         protecting its own assets. In addition, it assigned the Chief Information
         Officer responsibility for information assurance and the Chief
         Infrastructure Assurance Officer responsibility for protecting physical
         assets. Overall programmatic responsibility for PDD 63
         implementation was also consolidated under the Office of Security and
         Emergency Operations.

         The Department had made progress in fulfilling its responsibilities for
         coordinating energy sector infrastructure protection activities. Overall,
         activities associated with protecting critical private sector utility and
         petroleum industry assets were progressing. The Office of Critical
         Infrastructure Protection (OCIP), under the Office of Security and
         Emergency Operations, is working with private sector entities on issues
         related to protecting critical industry assets. Since its creation, the
         OCIP submitted detailed budget requests and developed comprehensive
         action plans for identifying and mitigating private sector vulnerabilities.
         Additionally, OCIP is tracking the progress of discrete tasks, such as
         vulnerability assessments, and appears to be making progress toward
         achieving established milestones.

         The Department was involved with or had completed several collateral
         initiatives that should facilitate but not replace PDD 63 implementation.
         The Department focused on these exigent issues and delayed

Page 4                                                          Details of Finding
                 implementation efforts accordingly. Specifically, the Department had
                 been immersed in a complex-wide effort to improve cyber security.
                 This effort began in late 1999 and was steadily progressing. The Year
                 2000 Computer Remediation effort, with the attendant identification of
                 mission essential or critical information systems, was also recently
                 completed. Based on the success of the Year 2000 effort, the
                 Department was able to make the new year rollover without major
                 difficulty.

                 While the Department's on-going initiative to improve cyber security
                 had achieved a number of successes, that program, standing alone, is
                 insufficient to satisfy the mandate of PDD 63. As we pointed out in our
                 recent report on Audit of Unclassified Computer Network Security at
                 Selected Field Sites (DOE/IG-0459, February 2000), the Department
                 had begun an effort to mitigate long-standing network vulnerabilities
                 and improve the overall cyber security climate. Such actions, while
                 noteworthy, should be viewed as a foundation rather than as a substitute
                 for the comprehensive vulnerability assessment process envisioned by
                 PDD 63. For instance, vulnerability tests conducted in connection with
                 the cyber security initiative were limited in scope, and may not satisfy
                 PDD 63 requirements to evaluate the interdependencies between
                 Departmental systems as well as external infrastructures such as
                 telecommunications, power, and transportation.

                 The Department also had not taken advantage of the systems listing
                 prepared in support of the Year 2000 remediation program to reduce the
                 PDD 63 implementation burden. Although this listing of critical
                 information systems cannot be substituted for the specific asset
                 identification process required by PDD 63, the Department may be able
                 to leverage such information to facilitate implementation efforts. For
                 instance, based on our preliminary analysis, we identified some
                 noteworthy examples of systems that the Department should consider as
                 critical infrastructure assets (see Appendix 1 of this report). Such
                 Departmental systems, if compromised, could negatively impact
                 national security, public safety and health, economic security, or the
                 Department's ability to satisfy internal administrative and management
                 functions.


Implementation   To accomplish its stated purpose, PDD 63 identified a series of specific
Requirements     actions Federal agencies were required to perform. For example, the
                 Department was required to develop and fully implement a plan for
                 protecting its critical computer ("cyber-based") and physical assets by



Page 5                                                                Details of Finding
                             May 22, 2000. Federal agencies were also required to subject their
                             infrastructure protection plans to an expert review process sponsored by
                             the National Critical Infrastructure Coordination Group. An important
                             intention of PDD 63 was for Federal agencies to provide the private
                             sector with a model on how to best protect national critical
                             infrastructure assets.

                             In addition to satisfying internal infrastructure protection requirements,
                             the Department was also charged with the responsibility for
                             coordinating energy sector activities. Specifically, the Department was
                             assigned the responsibility for serving as the Federal government's
                             liaison to private industry on issues related to protecting electric power
                             and petroleum production and storage assets. This responsibility
                             required the Department to aid private sector entities in assessing their
                             vulnerabilities to cyber and physical attack, to recommend plans to
                             eliminate vulnerabilities, and to propose a system for identifying and
                             preventing attacks.


Internal Implementation      While the Department had embarked on a major effort designed to
Efforts Have Not Been        improve cyber security and sustainability of cyber-related critical
Given Sufficient Attention   infrastructures, it had not given sufficient attention or priority to PDD
or Priority                  63 implementation. Specific performance measures or goals had not
                             been established, detailed funding plans had not been prepared and
                             resources needed for implementation had not been identified.
                             Competing priorities and organization changes also detracted from
                             implementation efforts.

                                             Lack of Performance Measures or Goals

                             The Department did not develop specific performance measures or
                             goals, as required by the Government Performance and Results Act, to
                             guide PDD 63 implementation efforts. For instance, our analysis of the
                             Department's Fiscal Year (FY) 1999 Performance Agreement disclosed
                             that infrastructure protection activities were assigned to the Office of
                             Nonproliferation and National Security even though the CIPP divided
                             critical asset protection responsibilities between the Department's Chief
                             Information Officer and the Chief Infrastructure Assurance Officer.
                             Additionally, the Department's FY 2000 and FY 2001 Performance
                             Plans did not contain specific measures or goals for completing critical
                             infrastructure protection activities.




Page 6                                                                              Details of Finding
                                                Funding and Resource Plans

                          Detailed resource and funding plans identifying all critical
                          infrastructure protection tasks also had not been prepared. While the
                          Department formulated detailed tasks for assisting external entities with
                          critical infrastructure protection activities, internal implementation
                          plans had not been developed. Resource plans identifying requirements
                          such as personnel, facilities and training necessary for implementation
                          had not been prepared. The Department's budget requests for FY's
                          1999, 2000, and 2001 also did not seek specific funding for internal
                          critical infrastructure protection efforts. Furthermore, budget
                          submissions for cyber security for those same years did not specifically
                          identify funding for completing internal infrastructure protection tasks
                          such as critical asset identification, vulnerability assessments, or
                          corrective action plans. In contrast, the Department budgeted
                          $2.1 million and $13 million for FY's 2000 and 2001, respectively, for
                          external critical infrastructure protection efforts.

                                                    Organizational Focus

                          Organizational challenges impacted the Department's critical
                          infrastructure protection efforts. The Office of the Chief Information
                          Officer indicated that the Department had elected to focus on exigent
                          problems in the cyber security area rather than on completing PDD 63
                          planning and assessment activities. Other officials from the Office of
                          Security and Emergency Operations also indicated that PDD 63
                          implementation efforts had been delayed due to competing priorities
                          such as Year 2000 remediation efforts and reorganizations within the
                          Department.


Implementation            The Department's lack of progress in implementing PDD 63 increases
Shortcomings Could        the risk of malicious damage to its cyber-related critical infrastructure
Impact Departmental and   that could adversely impact the Department's ability to protect critical
National Systems          assets and deliver essential services. Without the benefit of critical
                          asset identification, vulnerability assessments, and corrective actions,
                          the Department may not be able to swiftly eliminate any significant
                          vulnerability to cyber attacks or ensure that any interruption or
                          manipulation of cyber assets will be brief, infrequent, manageable, and
                          minimally detrimental. Such protection efforts are necessary not only
                          to ensure the Department's ability to perform national missions, deliver
                          essential services, and ensure public safety and health but also for
                          achievement of principal PDD 63 objectives.


Page 7                                                                        Details of Finding
                       Furthermore, the Department's overall lack of progress in
                       implementing its CIPP may impact national goals. Without
                       Departmental improvements, the national goals of realizing an initial
                       infrastructure protection capability by the end of year 2000, and
                       developing a fully functional critical infrastructure protection
                       program by year 2003 may not be achieved. Additionally, other
                       Federal agencies that rely on the Department for services or
                       information may be unable to complete their critical infrastructure
                       protection efforts until the Department's implementation efforts are
                       complete. For example, the Department of Defense and the Nuclear
                       Regulatory Commission rely on a Departmental nuclear material
                       accountability system and may be adversely affected by the
                       Department's lack of progress.


RECOMMENDATIONS        We recommend that the Director, Office of Security and Emergency
                       Operations take the following actions to facilitate PDD 63
                       implementation:

                            1. Revise the Department's CIPP to include expert review
                               team comments and new implementation milestones;

                            2. Prepare a detailed, comprehensive resource plan for all
                               critical infrastructure protection efforts;

                            3. Reallocate budgetary resources and/or seek additional
                               funds to satisfy critical infrastructure protection
                               requirements; and

                            4. Establish specific critical infrastructure protection
                               performance measures, based on revised CIPP milestones,
                               and include them in the Department's annual performance
                               plans.

MANAGEMENT REACTIONS   Management concurred with the finding and recommendations.
                       (Management's comments are included in their entirety in
                       Appendix 4).


AUDITOR COMMENTS       Management's actions are responsive to our recommendations.




Page 8                                                Recommendations and Comments
Appendix 1


                     EXAMPLES OF POTENTIAL CYBER-BASED
                       CRITICAL INFRASTRUCTURE ASSETS




 Focus Area           System Name                                 Responsible Organization
 National Security    Nuclear Materials Management and            Security and Emergency
                      Safeguards System                            Operations
                      Nuclear Material Inventory System           Defense Programs
                      at Los Alamos
                      SECOM Tracking System                       Defense Programs
 Safety and Health    Defense Waste Processing Facility           Environmental Management
                       Process Control Systems at Savannah
                       River
                      Tank Monitoring and Control                 Environmental Management
                       System at Hanford
 Economy              Supervisory Control and Data                Bonneville Power
                       Acquisition System                          Administration
                      Supervisory Control and Data                Western Area Power
                       Acquisition Energy Management               Administration
                       System
 Agency Operations    Corporate Human Resource                    Management and Administration
                       Information System
                      Departmental Integrated Standardized Core   Chief Financial Officer
                      Accounting System




Page 9                                                                Critical Infrastructure Assets
Appendix 2

SCOPE         The audit was performed between January and July 2000 at Department
              Headquarters in Washington, DC. We conducted our audit, in part, to
              support a President's Council on Integrity and Efficiency initiative to
              review Federal government-wide PDD 63 implementation efforts. The
              scope of the audit work was primarily limited to reviewing plans and
              specific actions taken by the Department to identify and protect cyber-
              based critical infrastructure assets for compliance with PDD 63.


METHODOLOGY   To satisfy the audit objective, we:

                    •   Reviewed applicable directives and guidance, such as
                        Presidential Decision Directive 63, Critical Infrastructure
                        Protection, dated May 22, 1998, and the Government
                        Performance and Results Act of 1993.

                    •   Analyzed the Department's November 18, 1998, Critical
                        Infrastructure Protection Plan.

                    •   Analyzed Departmental budget requests and performance
                        plans for information related to critical infrastructure
                        protection efforts.

                    •   Reviewed the conclusions reached by an independent expert
                        review team from the National Critical Infrastructure
                        Assurance Office.

                    •   Held discussions with management officials from the Offices
                        of Security and Emergency Operations, Chief Information
                        Officer, Critical Infrastructure Protection, and the National
                        Critical Infrastructure Assurance Office.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed. Also, we did not rely on computer-
              processed data to accomplish our audit objective. An exit conference
              was held with the Office of Security and Emergency Operations on
              July 6, 2000.




Page 10                                                     Scope and Methodology
Appendix 3

                            RELATED OFFICE OF INSPECTOR GENERAL AND
                              GENERAL ACCOUNTING OFFICE REPORTS


•   Audit of Departmental Integrated Standardized Core Accounting System (DISCAS) Operations at
    Selected Field Sites, (AP-FS-97-02, June 1997). The report pointed out that some weaknesses existed in
    the general and application controls for DISCAS that could adversely affect the reliability of data
    processed through the system.

•   Audit of the ADP General Controls at Idaho National Engineering and Environmental Laboratory
    (CR-FS-L-98-01, February 1998). The report stated that, although general controls had been
    established for ensuring that application controls could not be rendered ineffective by circumvention or
    modification, further enhancements were needed to ensure proper security over sensitive computer
    systems and data.

•   Audit of the ADP General Controls at Oak Ridge Complex, (CR-FS-L-98-02, February 1998). The
    report stated that, although general controls had been established for ensuring that application controls
    could not be rendered ineffective by circumvention or modification, further enhancements were needed
    to ensure proper security over computer systems and data.

•    Report on Critical Infrastructure Protection – Comprehensive Strategy Can Draw on Year 2000
    Experiences, United States General Accounting Office (GAO), (GAO/AIMD-00-1, October 1999). The
    report stated that our nation's computer based critical infrastructures are at increasing risk of severe
    disruption. The report pointed out that, in the Federal government, these risks are not being adequately
    addressed, and that tests and evaluations show that Federal systems are not being effectively protected,
    even though these systems process, store, and transmit enormous amounts of sensitive data and are
    indispensable to agency operations. GAO concluded that it is important that the Federal government
    take advantage of experience gained in addressing the Year 2000 challenge as it strives to reduce the
    risk associated with longer term threats to critical infrastructures.

•   Audit of Unclassified Computer Network Security at Selected Field Sites, (DOE/IG-0459, February
    2000). The report disclosed that six Departmental sites had significant internal or external weaknesses
    that increased the risk that their unclassified computer networks could be damaged by malicious attack.
    The OIG pointed out the need for correcting vulnerabilities found and establishing specific goals and
    performance measures for improving the level of unclassified computer security relating to network
    operations.

•   Information Security: Vulnerabilities in DOE's Systems for Unclassified Civilian Research, United
    States General Accounting Office (GAO), (GAO/AIMD-00-140, June 2000). The report stated that
    unclassified information systems for scientific research are not consistently protected at all DOE
    laboratories. GAO recommended that the Secretary take immediate steps to strengthen information
    technology security management at DOE laboratories.



Page 11                                                                                        Prior Reports
Appendix 4




Page 12      Management Comments
Page 13   Management Comments
Page 14   Management Comments
Page 15   Management Comments
Page 16   Management Comments
                                                                             IG Report No. : DOE/IG-0483

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                      Department of EnergyOffice of Inspector General, Home Page
                                        http://www.ig.doe.gov


                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
